V

%

No.

21-15 4 1 ORIGINAL
FILED

IN THE SUPREME COURT OF tM 2 9 2021
UNITED STATES

OFFICE OF THE CLERK
SUPREME COURT. U.S.

NAGUI MANKARUSE
Plaintiff and Petitioner
v.

RAYTHEON COMPANY, ET AL,
Defendants and Respondents,

PETITION FOR WRIT OF CERTIORARI
After Final Decision of the United States Court of Appeals for the Federal
Circuit Denial of the Petition of the Panel Rehearing and Rehearing En Banc,
Docket Case Number 2020-2309 , July 8, 2021
After Order of The Unites States Court of the Central District of California,
Southern Division, The Honorable David O. Carter Presiding
Docket Case Number 8:19-cv-01904-DOC

NAGUI MANKARUSE
19081 Carp Circle
Huntington Beach, CA 92646
Petitioner, In Pro Se
Tel: (714) 840-9673
Mobile: (714) 580-3777
Fax: (714) 846-5012
Emaikmanka ruse@gmail.com
mankaruse@aol.com

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF

V

1

l

A

QUESTIONS PRESENTED
I.

Whether the Honorable United States Supreme Court must
defend our Great United States Constitution?

II.

Whether the Honorable United States Supreme Court must
defend American Citizens rights to equally live under the United
States Constitution of all its provisions?

III.

Whether the Honorable United States Supreme Court will allow
the serious violations and the following direct attack on the Bill of
Rights and the First, Fifth, Eighth, ana Fourteenth Amendments
all in the same time to one American Citizen in the two related
Patent cases Petitioned for Review here by this Honorable Highest
Court of the land, and not to be strong precedence to all following
Actions of any American “Individual or Entity” and Ignore Our
Great American Constitution?

l.Whether the United States Supreme Court must defend the Bill of
Rights of our Great United States Constitution?
“...It guarantees civil rights and liberties to the individual-like freedom of
speech, press, and religion. It sets the rules for due process of the law ana serves
all powers not delegated to Ihe Federal Government to the people of the
States...”

2.Whether the United States Supreme Court must defend the First
Amendment of our Great United States Constitution?
“...Or abridging the freedom ofspeech. or of the press; or the right of the
people peaceably to assemble, and to petition the Government for a redress of
grievances. ”
3.Whether the United States Supreme Court must defend the Fifth
Amendment of our Great United States Constitution?
“...when in actual service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in jeopardy of life or limb;
♦.. nor he deprived of life. liberty, or property. without due process of law; nor
shall private property he taken for public use, without just compensation.... ”
4.Whether the Unites States Supreme Court must defend the Eighth
Amendment nor our Great United States Constitution?
“...nor shall any person he subject for the same offence to he twice put in
jeopardy of life or limbi... nor be deprived of life, liberty, or property, without

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

rN

cu
DO
m

r

T

\

due process of law; nor shall private property be taken for public use, without
just compensation. IThe United States Constitution prohibits the federal
government from imposing excessive bail, excessive tines* or cruel andltnusual
punishments. ”
5.Whether the United States Supreme Court must defend the
Fourteenth Amendment of Our Great United States Constitution?
“No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property. without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws. “
6.Whether the Unites States must respect the Great State of California
Declaration of Rights defend its California State Constitution; Article One?.
“Article I is part of the Great United States Constitution of the
Fourteenth Amendment.”
"...defendin g life and liberty. Acquiring, possessing. and protecting
property, ana pursuing happiness and privacy, ”
The above are important questions of law where it appears necessary to
secure uniformity of decisions and or the settlement and seriously the
important issues that all Americans must be treated EQUALY “individuals or
entities” under the United States Constitution are presented here in this
ACTION for the review by the Honorable Supreme Court Justices of the
United States of America.
This Petitioner is crying for JUSTICE in the land of law and justice,
please rescue. This Honorable Court is the last Resort on Earth.

ro
QJ

ao

2

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

LIST OF PARTIES
PETETIONER:
Nagui Mankaruse, In Pro Se

RESPONDER are represented by DLA Piper US, LLP;
Andrew P. Valentine, Lead Counsel representing all respondents / defendants.
RAYTHEON COMPANY, TRS LLC US, DAVID EARL STEPHENS, JOHN
RYAN, JAMES LEROY COTTERMAN, JR., MARK P. HONTZ,
KIMBERLY R. KERRY (KIM KERRY,), COLIN J. SCHOTTLAENDER,
WILLIAM H. SWANSON, THOMAS A. KENNEDY, MATTHEW
BREWER, F. KINSEY HAFNER, KEITH PEDEN, BRIAN ARMSTRONG,
RICHARD ROCKE and DOES 1 through 10, inclusive,

RELATED CASES
Nagui Mankaruse v. Intel Corporation, et al, United States Supreme Court, Petition Writ
of Certiorari

<1)
00
^TD

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

TABLE OF CONTENTS
QUESTIONS PRESENTED

2

LIST OF PARTIES

4

RELATED CASEES

4

TABLE OF AUTHOROTIIES

6

INDEX TO APPENDICES

13

INTRODUCTION

17

OPENIONS BELOW

16

JURISDICTION

17

NECCESISITY FOR REVIEW

19

REASONS FOR GRANTING THIS WRIT

22

CONSTITUTIONAL AND STATUARY PROVISIONS INVOLVED

.24

STATEMENT OF CASE

.27

SUMMARY OF THE ARGUMENT

36

ARGUMENT

41

CONCLUSION

53

DCLARATION

54

CERTIFICATION OF COMPLIENCE

56

PROOF OF SERVICE

57

APPENDECES

58

ln

0)
DO

2
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

j

TABLE OF AUTHORITIES
THE UNITED STATES CONSTITUTION
l.The Bill of Rights
The United States Bill of Rights comprises the first ten amendments (!) through
(X) to the United States Constitution. “It guarantees civil rights and liberties to
the individual-like freedom of speech, press, and religion. It sets the rules for
due process of the law and serves all powers not delegated to the Federal
Government to the people of the States.”
2.The First Amendment
Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
3.The Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person he subject for the same offence to
he twice put in jeopardy of life or limb: nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of lifet libertyt or property.
without due process of law; nor shall private property be taken for public use,
without just compensation. | On March 19, 2001, the United States Supreme
Court handed down a per curium opinion in Ohio v. Reiner, holding that the
Fifth Amendment right against self-incrimination protects the innocent as well
as the guilty.]
4.The Eight Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb: nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation. /The United States Constitution prohibits
the federal government from imposing excessive bail, excessive fines, or cruel
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

UD
Q0
CO

and unusual punishments. This amendment was adopted on December 15,1791,
along with the rest of the United States Bill ofRights.]
5.The Fourteenth Amendment
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States: nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
FEDERAL CASE LAW
1.Anderson Nat’l Bank v. Luckett,
321 U.S. 233, 244 (1944)
2. Cf. Bankers Life & Casualty Co. v. Crenshaw
486 U.S. (1988)
3. Be & K Constr. Co. v. NLRB
(2002) 536 U.S. 516, 53
5. Bill Johnson’s Restaurants, Inc. v. NLRB,
461 U.S. 731, 743 (1983)
6. Boddie v. Connectic
401 U.S. 371 (1971)
7. Brockett v. Spokane Arcades, Inc.,
472 U.S. 491, 105 S. Ct. 2794, 86 L. Ed. 2d 394 (1985)
8. California Motor Transport v. Trucking Unlimited,
404 U.S.508, 612 (1972).
9. Chicago, B. & Q. R.R. v. Chicago,
166 U.S. 226(1897)
10. Coates v. City of Cincinnati,
402 U.S. 611, 616 (1971)
11. Cohen v. Beneficial Industrial Loan Corp.,
33 7 U.S. 541 [69 S. Ct. 1221, 93 L. Ed. 1528}
12. Crandall v. Nevada,
73 U.S. (6 Wall.) 35 (1867),
13. Eastern R. Conference u. Noor Motors:
365 us 127 (1961)
14. Jordan v. Massachusetts,
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CD

on
TO

225 U.S. 167, 176(1912)
15. Mine Workers v. Illinois Bar Assn.,
389 u.s.217; 222(1967)
16. NAACP v. Button, 371 U.S.
415, 432-33 (1963);
17, Professional Real Estate Investors,
508 U.S,, at 58-61.
18. Snyder v. Massachusetts,
291 U.S. 97, 105 (1934)
19. Twining v. New Jersey,
211 U.S. 78, 101 (1908)
20. West v. Louisiana,
194 U.S. 258, 263 (1904)
21. United States v. Cruikshank,
92 U. S. 542, 552 (1876)
22. United States v. Harris,
106 U.S. 629
FEDERAL STATUTES
42 U.S.C. §1983 (1994)
461 U.S. at 743
404 U.S. 508,612 (1972)
Direct & Indirect Infringement 35 USC, 27(a), 271 USC (b), 271 USC (c)

CALIFORNIA STATE CONSTITUTION “1879”
ARTICLE 1 DECLARATION OF RIGHTS [SECTION 1-SEC. 32
(Article 1 adapted 1879.)
All people are by nature free and independent and have inalienable
rights. Among these are enjoying and defending life and liberty.
Acquiring, possessing, and protectins property. ana pursuing happiness
and privacy.
(Sec. 1 added Nov. 5, 1974, by Proposition 7. Resolution Chapter 90, 1974.)

No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

00CD

Q0

person within its jurisdiction the equal protection of the laws.
SECTION 2. (a) Every verson may freely speak* write and publish his or her
sentiments on all subjects, beins responsible for the abuse of this right. A law
may not restrain or abridse liberty of speech or press. I
CALIFORNIA STATE CASE LAW
23.Nagui Mankaruse v. Raytheon Company
30-2017-00934796-CU-1P-CJC, Volume I, Pages I-lthrough 6
24. Auto Equity Sales, Inc. v. Superior Court
(1962) 57 Cal.2a 450
25. Beyerbach v. Juno Oil Co.,
[236 Cal. App. 2d 528]
26. Bilyeu v. State Employees* Retirement System,
58 Cal. 2d 618/24 Cal. Rptr. 562, 375 P.2d 4421)
27. Camerado Ins. Agency, Inc. v. Superior Court (Stolz),
16 Cal. Rptr. 2d 42 (Ct. App.1993)
28. Gray v. Zurich Insurance Co. 31
(1966) 65 Cal. 2d 263, 276 [54 Cal.Rptr. 104, 419 P.2dl68])
29. Los Angeles County Bar Ass 'n v. Eu,
979 F.2d 697, 705-06 (9™Cir. 1992)
30. Muller v. Tanner,
82 Cal. Rptr. 738, 741 n.2 (Ct. App. 1970)
31. Parish v. Parish, 30
988 A.2d 1180, 412 N.J.2O10. Super. 39, 54
32. Professional Fire Fighters, Inc. v. City of Los Angeles,
60 Cal. 2d 276 [32 Cal. Rptr. 830, 384 P.2d 158}
33. Shalant v. Girardi
(2011) 51 Cal.4th U64, 545, 554,1176
34. Shari Lynn Poliak F/K/A Sharon Lynn Poliak Kalen V. David
Kalen,
App. Div., A 4185-09t3, July 5, 2012.

30

35. Taliaferro v. Hoogs
46 Cal. Rptr. 147 (Ct. App. 1965), at[5]
36. Wolfgram v. Wells Fargo Bank,
61 Cal. Rptr. 2d 694, 704 (Cal. App. 1997)
37.Funding v. Chicago Pneumatic Tool Co., 152 Cal.App.3d 951,955 (1984)
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CT)<D

ClO
03

3$.Dell E. Web b Corp. v. Structural Materials Co., 123 Cal.App.3d 593,604
(1981)
39.Lambert v. Carnegie (2008) 156 Cal App 4th 1120,1126.
40. C.A. v. William S. Hart Union High School Dist. (2012) 53 Cal 4,h 861, 872.
41.Allied Equip. Corp. v. Litton Saudi Arabia Ltd.f 7 Cal. 4th 503, 510-11
42.See id.; Glue-FoldInc. v. Slautterback Corp., 82 Cal.App.4th 1018,1024-26
(Cal. Ct. App. 2000).
43.Green Foothills v. Santa Clara County Board of Supervisors (2010) 48
Cal.4th 32, 42
44.May v. City of Milpitas (2013) 217 Cal.App.4th 1307,1324.”
CALIFORNIA STATUTE & LOCAL RULES
California Code of Civil Procedure - CCP § [391—3918)
391 (b)(2) After a litigation has been finally determined against the
person, repeatedly relitigates or attempts to relitigate, in propria
persona, either (ij the validity of the determination against the same
defendant or defendants as to whom the litigation hws finally determined.
(3) In any litigation while acting in propria persona, repeatedly files
unnieritorious motions. pleadings, or other papers, conducts unnecessary
discovery. or engages in other tactics that are frivolous or solely intended
to cause unnecessary delay.
Trade Secrets Law in California
The California Uniform Trade Secrets Act (“CUTSA”
California Code or Civil Procedure (CCCP 3426 - 3426.11)
The California Uniform Trade Secrets Act ("CUTSA") is located at sections
3426 to 3426.11 of the California Civil Code. CUTSA prohibits
"misappropriation” of trade secrets and provides certain remedies. In
addition, California law may impose criminal penalties for stealing trade
secrets. See Cal. Penal Code §§ 499c, 502.
CALIFORNIA STATE STATUTES
The Vexatious law California Civil law of Procedure CCP 391
California Code of Civil Procedure § 452

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

O
QO

California Unified Trade Secret Act, CUTSA law (CCP 3426-3426.11),
CCP 430.41(b), CCP 430.41(c)
Added by Stats. 1984, Ch. 1724, S^c. i
Government Code, § 68630, 686633
California State Cases of Authorities
OTHER OPINIONS WORK
1.Robert G. Bone,
Modeling Frivolous Suits, 145 U. PA. L.
REV.519,520 (1997)
2.Jacobs, Arnold S,
Cornell Law Review, supra note 96, at 293 n.52
(1973)
3.Andrews, Carol Rice
A Right of Access to Court Under the Petition Clause of the First
Amendment: Defining the Right, 60 Ohio St L. J. 557,656 (1999)
4.supra, note 38, at 1059. supra note 4, at 968
Walaman, First Amendment Right of Access
5.“Supreme Court on May 31, 2011 ruled on Indirect Infringement
"Global Tech Appliances, Inc. etal. v. SEB. S.A.”
6. Underwater Storage Inc. v. U.S. Rubber Co., 3 71 F.2d 950, 955 (D. C. Cir.
1966)
1.Cochise Consultancy, Inc. v. United States ex ret Hunt, No. 18-315, 2019 WL
2078086 (U.S. May 13, 2019),
Graham Cty. Soil Water Con, v. U.S. ex Ret Wilson, 545 U.S. 409 (2005)
8.Graham County Soil & Water Conservation District v. United States,
9.Monolith Portland Midwest Co. v. Kaiser Aluminum & Chern. Corp., 407 F.2d
288,292-93 (9th Cir. 1969)
lO.Supreme Court Addresses False Claims Act Statute of Limitations.... As
when the Court granted certiorari, the FCA has two statute of limitations.
Normally, a case must be brought within 6 years of “the date on which the
violation of [the False Claims Act] is committed.” 31 U.S.C. § 3731(b)
Q0

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

11.JEFFREY J. HEFFERNAN, PETITIONER v. CITY OF PATERSON, NEW
JERSEY, ETAL. ON WRIT OF CERTIORARI TO THE UNITED STA TES
COURT OF APPEALS FOR THE THIRD CIRCUIT [April 26, 2016]
12. (Slip Opinion) OCTOBER TERM, 2015
13.Syllabus NOTE: Where it is feasible, a syllabus (headnote) will be released, as
is being done in connection with this case, at the time the opinion is issued. The
syllabus constitutes no part of the opinion of the Court but has been prepared by
the Reporter of Decisions for the convenience of the reader. See United States v.
Detroit Timber & Lumber Co., 200 U. S. 321, 337. SUPREME COURT OF THE
UNITED STATES
U.Syllabus HEFFERNAN v. CITY OF PA TERSON, NEW JERSEY, ETAL.
15. CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT No. 14-1280. Argued January 19, 2016—Decided April
26, 2016. “Civil action under section 3730.

rsl
cu

do

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

INDEX OF RAYTHEON APPENDCES
I.0 Raytheon been informed that technologies are patented on 08/05/ 2008
2.0 The Federal Circuit Final Order Denied Nagui Mankaruse v. Raytheon
Company Panel Rehearing and Rehearing En Banc on July 8, 2021
3.0 The Federal Circuit Order Affirmed District Court Order to Transfer
Nagui Mankaruse v. Raytheon Case to the Federal Court Judgement
4.0 Ruling of the United States Court for the Central District of California,
Southern Division of Nagui Mankaruse v. Raytheon Company
5.0 Ruling California State Court of Raytheon Appeal Case #
6.0 Ruling California State Court on Nagui Mankaruse v. Raytheon Case #
30-2016-30-201600878349-CU-IP-CJC
7.0 Ruling California State Court on Nagui Mankaruse v. Raytheon Case #
30-2017-00934796-796-CU-IP-CJC
8.0 Docket the Federal Circuit Nagui Mankaruse v. Raytheon Company
9.0 Docket of the United States Court for the Ninth Circuit Order Transfer
Nagui Mankaruse v. Raytheon Company Case to the Federal Circuit based on
Raytheon Unilateral request on 09/21/2021
10.0 Docket United States Court for the Central District of California,
Southern Division of Nagui Mankaruse v. Raytheon Company
II.0 Docket State Court of California Nagui Mankaruse v. Raytheon Case
#30-2016--CU-IP-CJC
12.0 Intel Memorandum Declaration of Nagui Mankaruse, Appellant and
Plaintiff; Submitted to the Federal Circuit on 4/14/2021.
13.0 State Court Order DENIED Raytheon Motion to Declare Nagui
Mankaruse Vexatious Litigant Dated 8/1/2019.
14.0 Raytheon Memorandum Declaration of Nagui Mankaruse, Appellant and
Plaintiff, Summery Analysis of State Court Order DENIED Raytheon Motion
to Declare Nagui Mankaruse; Submitted to the Federal Circuit submitted to
the Federal Circuit on 4/14/2021.
15.0 United States Patent # 6,411,512 Cover Sheet & 16.0 Canada Patent #
2,389,458 Cover Sheet
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

ro
QD
TO

IN THE SUPREME COURT OF THE
UNITED STATES
NAGUI MANKARUSE
Plaintiff and Petitioner
v.

RAYTHEON COMPANY, ET AL,
Defendants and Respondents,

PETITION FOR WRIT OF CERTIORARI
After Final Decision of the United States Court of Appeals for the Federal
Circuit Denial of the Petition of the Panel Rehearing and Rehearing En Banc,
Docket Case Number 2020-2309, July 8, 2021
After Order of The Unites States Court of the Central District of California,
Southern Division, The Honorable David O. Carter Presiding
Docket Case Number 8:19-cv-01904-DOC

NAGUI MANKARUSE
19081 Carp Circle
Huntington Beach, CA 92646
Petitioner, In Pro Se
Tel: (714) 840-9673
Mobile: (714) 580-3777
Fax: (714) 846-5012
Email: mankaruse@gmail.com
mankaruse@aol.com

GO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

INTRODUCTION
l.ONagui Mankaruse plaintiff and petitioner in the United
States Supreme Court petition for Writ of Certiorari respectfully
asking the review of the whole matter De Novo by our Honorable
Highest Court of the Land as the last resort to get Justice in our
Great Nation. This petitioner has exhausted all efforts for
settlements communications with Mr. William Swanson, prior
Raytheon Chairman &CEO, Mr. Keith Peden, prior Raytheon
Corporate Senior Vice President, Mr. F. Kinsey Hafner, Prior
Raytheon Vice President Intellectual Property and Licensing
(“current defendants in this case”) and the unhuman misconduct by
Raytheon to Nagui Mankaruse; please watch the 4 minutes investigative
report on abc 10 News Video Aired on November 6, 2013 from the link here;
https://youtu.be/br2239gT2Q4..
2.0In addition of multiple one-sided letter correspondences
to Dr. Thomas A. Kennedy (“current Raytheon Chairman /
CEO”) in the last few years and (“current defendant”) offering
solving this unneeded dispute by settling out of Court without
any kind of response except defense Council Mr. Andrew
Valentine in State Court scheduled Settlement Conference one
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

m
ao

time who have offered his proposed settlement for the plaintiff
Nagui Mankaruse to dismiss all Actions against Raytheon, and
that can be settlement offer. Later towards the end of the
litigation in the Sate Court on and around October 9, 2019 in the
hallway acknowledged that Raytheon used the infringed
technologies, and DLA Piper is large Law Firm and Raytheon is
large company (“while the Claim is pending in the State Court
case of 2017”) and we know everything from people we know
from people in all Courts.
3.0No other appeal in or from the same civil action or proceeding in the
district court was previously before this or any other appellate court except
current Intel & Raytheon cases which can be precedence (“Appendix 10 top of
the page says “The disposition is nonprecedential””) is a beginning of endless
series of violations to the United States Constitution in many directions.
OPENIONS OF THE FEDERAL CIRCUIT COURT OF APPEALS BELOW
4.0The Federal Circuit Court in its judgment on May 7, 2021, has
affirmed the District Court’s Dismissed of (“Appendix 10-27”) Mankaruse
case against Raytheon and the parties shall bear their own costs. The Federal
Circuit Court has also noted that the disposition is “nonprecedential”
(“Appendix 10”)
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

00
Q_

S.OThe petition for Panel Rehearing and Rehearing En Bank in July 8,
2021 have Ordered the following.
Upon consideration thereof,
The petition for panel rehearing is denied
The petition for rehearing en bank is denied
The mandates of the court will issue on July 15, 2021.
JURISDICTION
6.0The petitioner respectfully ask the Honorable United States Supreme
Court to Grant the writ of certiorari as a matter of urgent and compelling
reasons. The following, although nor controlling nor fully measuring the
Courts direction indicate the character of the reasons the Court considers:
7.0The United States Court of Appeals for the Federal Circuit has
entered a decision in conflict with the United States Constitution Bill of Rights
and multiple Amendment (“First, Fifth, Eight, and Fourteenth”) on this
important matter; has decided an important federal question in way that also
conflicts with a decision by the California State Court (“Appendix 99-104“)
and has so far departed from the accepted and usual course of judicial
proceedings. And departure by the District Court as to call for and exercise
the court supervisory power (“discretion of the Court”) violating in every turn
the Bill of Rights” ... It guarantees civil rights and liberties to the individual­
like freedom of speech,...”, the First Amendment (“... abridging the freedom

ly
QD
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

of speech, or of the press; or the right of the people peaceably to assemble, and
to petition the Government for a redress of grievances....”) and the Fifth
Amendment (“...nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; ...nor be deprived of life, liberty, or
property, without due process of law: nor shall private property be taken for
public use, without just compensation’’) and the Eighth Amendment (“...nor
shall any person be subject for the same offence to be twice put in jeopardy of
life or limb; ,nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just
compensation...”). [The United States Constitution prohibits the federal
government from imposing excessive bail, excessive fines, or cruel and
unusual punishments, and the Fourteenth Amendment (“...No State shall
make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States: nor shall any State deprive any person of life.
liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws...”)
8.0The United States District Court and the United States Federal
Circuit Court of appeals has decided an important question of federal law
that has not been, but should be settled by this Court, and also decided an

00
T—I
ai
ClO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

important federal question in a way that conflicts with relevant decisions of
this Court.
9.0This case has asserted error consists of enormous factual findings
and misapplication of properly stated in the United States Constitution in the
Bill of Rights and 1st, 5th, 8th, and 14th amendments.
10.0A Timely petition for re-hearing was therefore denied, entered on
the date of July 8, 2021, and a copy of the re-hearing petition and the Order
Denial in the Appellant Court Case Information are in (“Appendix 5-6”)
ll.OOn the Petition for a Writ of Certiorari is filed by US mail within
the time limit as set by law.
NECESSITY FOR REVIEW
12.0 The United States Court of Appeal’s for the Federal Circuit
opinions in this case breaks sharply with this Court’s proud history of
protecting Our Great United States Constitution and every American
Constitutional Rights.
13.0 When faced with “extensive evidence” Raytheon for years have
diverted the attention of the Trial Courts to side issues departing out from the
merits of the case like frivolous motions including frivolous motion to declare
Nagui Mankaruse a vexatious Litigant that consumed time from the filing of

cn
QO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

the amended Compliant until this time now (“about 20 months” and still more
to come if we are ever going to see a trial in this Action”).
14.0The District Court Have Erred granting this motion to the
defendants in January 23, 2020 (“Appendix 26-31”) which completely ended
the entire case before we even come to any merits. Raytheon is a major
aerospace multinational corporation, with influence and unlimited resources
acting in bad faith to get away with deliberate intention violating their
agreements, the law of the land and our great United States Constitution in
multiple settings and incidents with Nagui Mankaruse (“documented and
acknowledged by Raytheon “Appendix 3”). the 4 minutes investigative report
on abc 10 News Video Aired on November 6, 2013 from the link here;
https://youtu.be/br2239gT2Q4..
15.0While he was employed by Raytheon as Principal Systems Engineer
and Principal Mechanical Engineer from May 10, 2004- April 17, 2012 (“8
years”) and associated documents (“Appendix 3-8”) to get away with the highprofile infringement on the US Patent 6,411,512 & Canada Patent 2,389,458,
(“Appendix 113-117”) using the protected technologies extensively in three
major Missile Defense Systems (“THAAD, Fire Finder RM1 and Sentinel
Improved”) without meeting any of its obligations, rather went out of their
O

way to run away free including misconduct and abuse resulted in Mankaruse

r\j

DO
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

was injured acquired the deadly heart Arrhythmia, then wrongful
termination, then putting it a task to prevent him not to get employed a gain
to control his income in a way that since he acquired the disease he live with
his family under the poverty line all the time, the vexatious litigant motion has
the same goals, three times in less than 2 years file motions to declare
Mankaruse vexatious litigant and security Bond for two reasons to end the
cases because they are very much aware of his income exactly and also to
prolong the cases until they are killed by itself before any merits (Appendix
99-104”).
16.0WhiIe acting in misconduct they have violated Our United States
Constitution (“Bill of Rights, It guarantees civil rights and liberties to the
individual, while Mankaruse lost most of his civil rights and liberty,..., “) (“1st
amendment, ,,..and to petition the Government for a redress ofgrievances.
While Mankaruse is not able petition the government conditioned to have
money to pay for the requested and granted security Bonds to defend himself
and his property which he cant have money not because he is stupid which he
is not, or because he doesn't want to go to work, but because he happened to
be restricted to have Mooney to pay for a bond of $25K one of Raytheon
councils spend them in any morning .”)
csl
DO

a.

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

17.0The 5th amendment (“...nor be deprived of life, liberty, or property.
without due process of law;...”) while Mankaruse was with his family
deprived of life, liberty and his property.
18.0(“8th amendment (“...nor be deprived of life, liberty, or property,
without due process of law:...”V while Mankaruse deprived of lifbe liberty an
d property without due process, (“...nor shall any person be subject for the
same offence to be twice put in jeopardy of life or limb...”), while Mankaruse
was is subject for the same offence three times in a row within less than two
years.
19.0And 14th amendment (“...The United States Constitution prohibits
the federal government from imposing excessive bail, excessive fines, or cruel
and unusual punishments....”), however. Mankaruse imposed to excessive
security two security Bonds for Raytheon and Intel in the same time while
Raytheon and Intel delibratly chose that strategies because they knew
Mankaruse at that time cannot afford $50 not $50K bonds. The Courts are
smarts, they ca spot such bad faith in such circumstances easily.
REASONS FOR GRANTING THE WRIT
20.0This ruling by the District Court Errors Affirmed by the Opinion of
the Federal Circuit Appeals Court is making a precedence however even is
rsi
not to be published (“because it is misstated legal definitions or Errored”) can

CM
Q0
TO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

be precedence for many future cases and many grievances and complaints in
the Courts of Law of our Great Nation the United States of America and the
Great State of California and other Great States as well can abort many cases,
many innocent plaintiffs will lose valuable Constitutional Rights as a result
will be lost forever because of this precedence and Justice will suffer.
21.0.The legitimate rights of the Petitioner Plaintiff in this high-profile
Action can be lost and Justice is the loser to every American and every
Californian, however allowing the plaintiff to have his day in Court is
preserved his United States Constitutional Rights, Federal legal rights and
Justice can prevail.
22.0 Many Californians have lost their United States Constitutional
rights due to the vexatious law, California Civil law of Procedure CCP 391,
Including loss of property that they were not able to defend if they didn’t have
or cannot afford legal Counsel and involved in many activities that warrants
them to exercise their Constitutional Rights to have their day in Court to get
their property back particularly if these Americans or Californians up against
big entities or powerful defendants as the example presented itself here with
this Petitioner Plaintiff Appellant while he is up against large multinational
Corporations and serve our Society at his best and asking for Justice while we

m
r\i

oo
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

are all equal under God and the United States Constitution, but it seems he is
not getting it until now.
23.0 The District Court Erred in its decision and the United States
Appeals Court for the Federal Circuit has completely GUESSED in his
Judgment (Ruling) and didn’t consider or noticed any of the documented
evidences supported by the United States Constitution Amendments
presented by the petitioner plaintiff all documented evidences presented to the
Courts in every Item raised by the Amended Complaint, the Brief and Reply
on Appeal and on the Panel Rehearing & Rehearing en banc Briefs In fact
the District Court and The Federal Circuit in there Ruling completely ignored
every fact that have been extensively documented and were available to the
District Court during the allowed litigation.
CONSTITUTIONAL AND STATUARY PROVISIONS VIOLATED BY THE
DISTRICT COURT AND THE FEDERAL CIRCUIT
24.0The United States Bill of Rights.

“The Table of Authorities; Bill of Rights comprises the first ten amendments
(I) through (X) to the United States Constitution. “It guarantees civil rights
and liberties to the individual-like freedom of speech, press, and religion. It
sets the rules for due process of the law and serves all powers not delegated to
the Federal Government to the people of the States.”
25.0The First Amendment

CM
CD
QO
Cl

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
26.0The Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger: nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation, IQn March 19, 2001, the United States
Supreme Court handed down a per curium opinion in Ohio v. Reiner, holding
that the Fifth Amendment right against seif-incrimination protects the innocent
as well as the guilty.]
27.0The Eight Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation. IThe United States Constitution
prohibits the federal government from imposing excessive bail, excessive fines,
or cruel and unusual punishments. This amendment was adopted on
December 15,1791, along with the rest of the United States Bill of Rights.)
28.0The Fourteenth Amendment
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States: nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.

LD
CM

<D
OD

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

FEDERAL LAWS GOVERNS THE PATENT INFRINGEMENTS
29.0lndirect Infringement 35 U.S.C. 271 and 271(b)
30.0Direct Infringment35 U.S.C. 271(a)

CALIFORNIA STATE CONSTITUTION “1879”
31.0 ARTICLE 1 DECLARATION OF RIGHTS [SECTION 1-SEC. 32
(Article 1 adapted 1879.)
32.0All people are by nature free and independent and have inalienable
rigOhts. Among these are enjoying and defending life and liberty.
Acquiring. possessing. and protecting property, and pursuing happiness
and privacy.
(Sec. 1 added Nov. 5, 1974, by Proposition 7. Resolution Chapter 90,
1974.)

34.0.No State shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
35.0SECTION 2. (a) Every person may freely speak, write and publish his or
her sentiments on all subjects, being responsible for the abuse of this right. A
law may not restrain or abridge liberty ol speech or press.l
36.0The Federal law protects trade secrets?
37.0.The Defend Trade Secrets Act of 2016 (DTSA) (Pub.L.
______
114-153,130 Stat.
376, enacted May 11, 2016. codified at 18 U.S.C. § 1836, et seq.) is a United
States federal law that allows an owner of a trade secret to sue in federal court
when its trade secrets have been misappropriated.
38.0Trade Secrets Law in California
The California Uniform Trade Secrets Act (“CUTSA”
California Code of Civil Procedure (CCCP 3426 -3426.11)
39.0.The California Uniform Trade Secrets Act ("CUTSA") is located at
sections 3426 to 3426.11 of the California Civil Code. CUTSA prohibits
"misappropriation" of trade secrets and provides certain remedies. In
addition, California law may impose criminal penalties for stealing trade
secrets. See Cal. Penal Code §§ 499c, 502.
C\l

CU
00

ro
o_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

STATEMENT OF THE CASE AND FACTS
40.0.The petitioner plaintiff filed his Brief on Appeal to the Federal
Circuit Court regarding ERRED Rulings by the District Court of the Central
District Court of California, Southern Division declaring Nagui Mankaruse
Vexatious Litigant followed by Striking the 1st amended complaints against
Raytheon and cancelling the Scheduling Conference right before the start of
the Discoveries after the Scheduled Conferences in ERROR (Ruling entered
on 1/23/2020 hearing (Appendix 27-31) and Mankaruse v. Raytheon Ruling
entered from Chamber work after the postponed hearing for Intel was
canceled on the original date of 1/21/2020 to 1/27/2020. Violating ruling of the
Superior Court of California County of Orange, the Honorable James L.
Crandall Presiding in five pages Ordered on August 01, 2019 (Appendix 99104) that this plaintiff is NOT a Vexatious Litigant and analysis (“Appendix
106-111).
41.0This Petitioner Appellant / plaintiff is under several types of abuses
by these two multi-national companies (“INTEL & Raytheon”) and their
management for long time (“Documented”). This appellant / plaintiff has done
nothing wrong; this petitioner / plaintiff didn’t abuse the legal system, these
Appellee’s / defendants abused this petitioner appellant / plaintiff and the
legal system for long time including in the Courts while Mankaruse came to

r^
CNI

DO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

the Courts to protect himself and his legal and Constitutional Rights from
these appellees / defendants9 misconduct (“Raytheon et al”) and the place this
can be done is in the court of law. These respondents / defendants are the
abusers of the legal system of our Nation without limitation, they believe that
because they are big multinational entities with unlimited resources, they
must have the right to do anything they like even abusing the legal system of
the land and abusing the Courts and the Constitution.
42.0The petitioner Appellant / plaintiff only did one thing which is filed
the Complaints and since then he didn’t do nothing more than just responding
to these defendants’ frivolous motions after motions filed in bundles in the
State Court and repeating the same strategies in this District Court and
Federal Circuit (“Appendix 8-34”)
43.The Honorable District Court Initial Order setting R26 scheduling
conference for INTEL & Raytheon on 11/06/2019 to be on January 13, 2020
and continued to the following week on January 21, 2020 turned to be a maze
of frivolous motions filed by Appellees / defendants Raytheon & Intel where
bundles of frivolous motions (“nine (9) frivolous motions”) to be heard in the
same day for the two cases plus the R26 scheduling conference. It is only clear
from the simple reviewing of the Federal Circuit and the District Court
OO

dockets (“Appendix 32-89”) are the number of motions the respondents /

C\J
ao

(TO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

defendants (“Raytheon”) have filed over the years not related to the merits of
the cases, no case until today have been crossed the complaint stage except
frivolous motions by the defendants just the petitioner plaintiff filed a
complaint, then followed by bundles of motions consumed years in courts
without getting to the point of what the case is all about. Raytheon et al are
those who are abusing the legal system not the petitioner / plaintiff. This style
of abuse repeated itself in every Court case until they are messed up all of
them one by one.
44.This petitioner / plaintiff believes that we shouldn’t be in any Court
at all, while the issues are very simple and clear if there is Good Faith, the
petitioner / plaintiff was abused from both top managements of the multi*
national Corporations (“Raytheon”) early on and after Mankaruse Disclosing
his Patented technologies and Intellectual Property to Raytheon since August
5, 2008 (“Appendix 3”) if the parties can set together individually in good
faith settlement conference everything can be solved in few hours out of court.
It is very simple, Raytheon used the plaintiffs technologies and Intellectual
Property, and it is now in every Missile Defense System of the THAAD, Fire
Finder RM1, and Sentinel Improves systems, they simply must pay the bill.
But they stated that they refused these several attempted for settlement

cn
requests over the years, and then refused plaintiff request to settle the

CM
00
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

agreements of Raytheon on Missile Defense Systems in their products just
/

they want the dismissal that they want Mankaruse to dismiss the case and
they run free with the illegal use of the patented technologies. The fair offer to
settle out of court is always available and is available also now.
45.0First, the petitioner litigant “plaintiff’ in this Honorable District
Court was not noticed because the Court has pre-determination of the ruling
in the Case. Second the District Court missed the careful examination of the
history of the compiled record for review which resulted in ERRD decision, i)
since the plaintiff did nothing over the years more than fling the complaints
which is his Constitutional Right (“the Bill of Rights, 1st, 5th, 8th, and 14th
Amendments”), the defendants Raytheon did all the harassing to the plaintiff,
by filing the frivolous non-relating Motions after Motions and most of times
in bundles together (“all motions filed before the first hearings of Rule 26 (f)
in both Cases”), (“Appendix 60-89”) where the plaintiff had no power to limit
the frivolous motions’ numbers in every situations. Plaintiff is only must file
answers in time which in addition to consuming all these years in Courts
without moving any litigation beyond filing Complaints from the plaintiffs
side and short of getting to any Discoveries to trials, ii) the defendants
Raytheon filed multiple non-related Motions for the purposes of harassing the
O

plaintiff and overwhelm the Courts of non-related issues and consume time

PO
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

which distracts the Courts from the real Merits to support why the Cases
were filed, in addition the defendants are spending huge unsubstantiated
costs and fees which never mattered to them, just using the patented
technologies for free “why the defendants in a scheduling Conference Hearing
brings three individual Attorneys coming from ail over the Nation, (“The
Lead Council Came from San Francisco, and another Councils Came from
Los Angeles and Massachusetts”) the defendants have unlimited resources
and their Councils of records are doing terrific business for themselves and
their Law Firms. The motivations here in these incidences are great, they are
far from searching for the truth on the Merits of the issues which is already
known to them from the correspondence with the management and executives
since plaintiff disclosed the solutions to Raytheon in August 5, 2008
(“Appendix 3”) must be the goals of these Honorable Courts.
46.0 Our Courts are here to protect our great Constitution of the United
States and every American from any abuse coming to him / her including
abuse of American animals.
47.0The Discovery in the Raytheon case was due to start immediately
after the Court Order of the Completed Scheduling Conference which was
stayed because of the Vexatious Litigant thing request for Security Bonds
valued at S25K that we are turning in circles for several years in the State

CO
QD
TO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Court that we never held any Discovery for no reason other than same
defendants behaviors of over whelming the Courts with frivolous unrelating
Motions in bundles, and the State Court never allowed the case beyond the
complaint, and when ruled in Summary Judgement was before any Discovery
which is another Error to be added, which resulted in granting it to the
defendants. It is a very good example of Catch 22, we are turning around in
circles and never get to any of the facts.
4$.0Why all of that are happening to this family as an Honest Patriotic
Americans live in Good Faith, love this Nation, love of freedom and love to
help anyone with what they have including Raytheon and Intel to help our
Military and our National Security for the safety of our Nation and add to our
National Economy. Our Patented technologies and Intellectual Property
helped tens of thousands of Americans in direct and indirect employment in
the infringing projects without Mankaruse participation using his patented
technologies in several projects over the years and continue to do so in the
case of Raytheon tens of thousands of personnel to make living working or
keep their jobs over the years while plaintiff and family are living beyond
animaPs standards in the way they are treated by Raytheon. Plaintiff and
family are still trying to save their dignity and their prides as Americans
cn

which are humiliated by Americans on American Soil, it is unbelievable and

co
QD

2
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

beyond the comprehension of any mind to anyone hear about it. Anyway, it is
this Honorable United States Supreme Court to decide Justice, rightness and
fairness based on the truth and facts that are presented here and before and
became public records to the whole Nation and the whole world to see.
49.0This plaintiff now always does have unlimited love for America
while here in these situations “The innocent became the Guilty and the Guilty
became innocent needs the protection of the Court” this cannot make any
sense to anyone. This is Un-American; all this abuse of the plaintiff and his
family by Raytheon and Intel the largest in the world in their line of business
are just unbelievable and even far from comprehension. This American family
have done nothing bad in their whole life to be punished for. This family’s
Intellectual Property is stolen, and the Courts of this land must defend the
Constitutional rights of this American Family in Order to live like every
American family in our great society, this American family is very much
Protected by Our Constitution; the Bill of Rights, 1st, 5th, 8th, and 14th
Amendments and similar California Statutes as presented in this document.
50.0This American plaintiff’s history of litigation doesn’t incriminate
him, rather incriminate all the defendants Raytheon et al and Intel et al are
the ones who did the misconduct and the harassing to the plaintiff he has to

ro
defend himself in the Courts of law which is guaranteed to him by our

ro

GO
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Constitution which we must hold on it very strongly as the only thing we have
to guarantee the values of our great society. The defendants continue filing
their frivolous Motions after Motions in bundles to delay and prolong the time
of litigation and the plaintiff cannot stop them. The Courts responsibilities are
to stop the defendants’ illegal behaviors in both cases of Raytheon and Intel.
This plaintiff has the complete faith not the fear in his motives to win the two
litigations if they are litigated on the merits, the defendants infringed on his
Patents and Intellectual Property. In the case of Raytheon & Intel never can
deny the infringement on his Patents and Intellectual Property, in the same
time refusing to pay the bill or now settle while the evidence is available now
in the three infringing Missile Defense Systems &every computer in the world.
51.0The plaintiff was represented by Councils at the beginning but were
compromised by the defendants one after the other, however this plaintiff now
being Pro Se is legal and believe he can sail thorough the trial process the next
day the Supreme Court allows it, the evidence he has can carry enough proofs
to support his claims in both trials. The years spent by the defendants in
litigating frivolous motions must be stopped in this Honorable United States
Supreme Court, the defendants are deliberately creating all the expenses
which at this time all needless. If we want to be efficient let us go to the trial
right away or go to guided settlement under court supervision and the

ro
bO

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

plaintiff is ready to accept 50% of the damages in both cases of Raytheon and
Intel anytime. The defendants caused incurring all unbearable expenses and
burdens of their making. The plaintiff is still handling all the responses to
their unrelated frivolous motions and the time is continued to pass by years.
52.0It is unconstitutional to deprive any free American from his
constitutional rights, legal rights or any rights because he doesn’t have money,
then he must accept abuse and cannot go to court to fight for his rights. We
are all equal under God, and under the United States Constitution.
53.0 Raytheon Case Pacer Docket speaks for itself, shows that after
Mankaruse filed his Amended Complaint (“11/22/2019”) Raytheon filed
zillion motions.
54.0For all these factual reasons, the United States Supreme Court have
the responsibility firsthand to defend our constitution, respectfully should
Reverse its Opinion and be overwhelmed by defending nothing else but the
United States Constitution as written.
55.0Mankaruse prays that this Honorable the United States Supreme
Court reexamine case history in the Courts for the Best of Our Nation,
defending our Constitution fiercely not for Mankaruse, Intel, Raytheon only,
but for the United States of America, the United States Supreme Court is

ln

CO
QO

CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

defending our Constitution.
SUMMARY OF THE ARGUMENT & QUESTIONS PRESENTED
56.0District Court Order requiring Mankaruse to furnish S25K
Security Bond must be supported by constitutional grounds, Mankaruse is
NOT a vexatious litigant (“Appendix 99-104”); “based on the 8/1/2019 Order
by the Superior Court of California, Honorable James Crandall presiding,
”...there is reasonable probability of Prevailing “Appendix 104, Item #D”.
57.0The District Court did not get chance to examine the 364 documents
filed under seal (“Appendix 84, dated 12/2/2019”) and the Patents Infringed
Analysis in the Amended Complaint providing grounds & Analysis for
prevailing.
58.0There are no grounds that made the District Court violates the
multiple United States Constitution Amendments as originally written while
the Federal Circuit concur even with wrong case count by any means is only
two case if considering Qualified Cases only for Raytheon because the 2017
State case is different from the 2016 State case because it has different causes
of Actions and different defendants (“Appendix 99-104”) and (“Appendix 106110”) which is the real number is two is less than five (5), which does not
reach the limit to be named vexatious litigant, however unconstitutional.

UD

m

QD
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

59.Does Raytheon litigation history and strategies diverting the
litigations count in the State Court qualified cases (“Table #1 in this
document”) present any alarming signals to the District Court, the Federal
Circuit concurred with the District Court without any real reason without
even counting the qualified cases (“Table I in this Document”). The history of
litigation until today “more than two years” in the District Court and Appeals
Case entertaining several unrelated frivolous motions ignoring litigating the
Complaints on the merits and violating the Ruling of the State Court
(“Appendix 99-104”) and the United States Constitution, (“Bill of Rights, 1st,
5th, 8th and 14th Amendments”), and the California State Constitution (“items
22-29 of this Document”).
60.0Does the Federal Circuit Erred to count the number of cases wrong
and base their conclusion on adding all filed cases to both Intel and Raytheon
(“Qualified and Unqualified”) and never Noticed the “State Court Order
8/1/2019 (“Appendix 99-104”). The single qualified case as Pro Se even never
reached the number of cases to five? “CCP391, CCP(391(b)(2)&(3).”
61.0Asking why this plaintiff has been mistreated with some of this
unhuman misconduct, please watch the 4 minutes abc 10 News Video Aired on
November 6, 2013 from the link here; https://voutu.be/br2239gT2Q4.
Basically, this plaintiff is mistreated and continued to be mistreated unfairly

m
00
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

by these defendants even in the Courts of Law pursuant to our Constitutions,
the truth must prevail.
62.0Analvsis (“Appendix 106-110”) Minute Order Plaintiffs NonVexatious Litigant (Appendix99-105)
(Item #1) ; Five Litigations Determined Adversely In Preceding 7 Years
defendants9 Motion declaring plaintiff Nagui Mankaruse and Determined
NOT Vexatious Litigant In the Preceding 7 Years
DENID on the Grounds Listed.
(Item #2); Repeatedly Litigates Claims
DENIED on the Grounds Listed.
(Item #3); Unmeritorious Fillings Have Caused Undue Delay Repeatedly
DENIED on the Ground Listed.
D. Reasonable Probability of Prevailing.
63.0In the top of the Caption sheet of the Federal Circuit opinion
(“Appendix 9top line”) the Honorable Federal Court Judges wrote on May 7,
2021 (“NOTE: This disposition is unprecedented”)!!!
64.0Looking at this sentence with an Analyzing eye must raise several
questions with no Answers. It is left to our Great Honorable nine Justices of
the United States Supreme Court to think about why the Federal Circuit do
this to this Appellant in this case at this time???
58.TABLES

00

on

QJ
00

ro
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

TABLE I: (Qualified)Pro Se Actions Against Raytheon, et al
No
1

2

Court Erred in
Granting the
Case to
Defendants in
Summary
Judgement.
QUALIFIED
UN-Qualified,
Accepted by the
same Court due
to different
defendants.
Combined with
Case #1 CCP
391(b)(2)

Case Name and No.:
Mankaruse v. Raytheon Company et al.
Case No. 30-2016-00878349-CU-IP-CJC
Date Filed:
September 30, 2016
Disposition:
Summary judgment granted before any Discoveries on Raytheon
Case Name and No.:
Mankaruse v. Raytheon Company et al.
Case No. 30-2017-00934796-CU-IP-CJC
Date Filed:
September 30, 2017
Disposition:
Summary judgment granted before any Discoveries on Raytheon S

TABLE II
(UN-Qualified)Pro Se Actions Against Raytheon, et al
Litigated by
Case Name and No.:
Council
Mankaruse v. Raytheon Company et al.
Case No. 30-2013-00625080-CU-WT-CJC
(The “Second Employment Case”)
Date Filed:
January 17, 2013
Disposition:
Jury verdict in favor of Raytheon in December 2014.
Court of Appeal affirmed. (RJN % 3, Ex. 4).
T. Litigated by
Case Name and No.:
Council Alfen
American Innovation Corp. et al. v. Raytheon
Perry; Plaintiff is Company et al.
Corporation
Case No. 30-2014-00732670-CU-BC-CJC
(The “First IP Case
Date Filed:
July 7, 2014
Disposition:
Fraud and deceit claim dismissed on Nov. 9, 2016.
(RJN f 4, Ex. 5). Mr. Valentine in the Hallway told
Mankaruse Judg<e Banks Angry if you don’t Dismiss
Claim. (RJN f 5, Exs. 6-7).

r

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

cr>
on

O)
QO
TO

3.

Manage the
cases,
consolidation

Dismissed to
Manage &
Consolidate,
after Council
Allen Perry
Dismissed Other
issues.
Filed The 2016
case Pro Se the
next day.

Case Name and No.:
Mankaruse v. Raytheon Company et al.
Case No. 30-2016-00841632-CU-IP-CJC
(The “Second IP Case”)
Date Filed:
March 18, 2016
Disposition:
Plaintiff dismissed the lawsuit on May 16, 2016 (RJN
II 6, Ex. 8) within two months, Case dismissed before
demurrer hearing.
Case Name and No.: to manage
American Innovation Corp. v~Raytheon Company et
al.
Case No. 30-2016-00860092-CU-IP-CJC
(The “Third IP Case”)
Date Filed:
June 27, 2016
Disposition
Plaintiff dismissed the case on September 29,2016.
Different Plaintiff and Defendants (RJN % 7, Ex. 9).
Within three Months

65.0The District Court have issued an Order violates (“Bill of Rights,
1st, 5th, 8th, and 14th Amendments”) and our California State Constitution
Article 1, Sections 1, and 2.
66.0According to “Bill of Rights” the first ten Amendments of our great
Constitution the petitioner lost most of his civil rights and have been taken
away from him by the District Court and Affirmed by the Federal Circuit
“...It guarantees civil rights and liberties to the individual-like freedom of
speech, press, and religion. It sets the rules for due process of the law and
serves all powers not delegated to the Federal Government to the people of the
States...”
O

67.0The First Amendment
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

O)
GO
CL

(“...abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of
grievances...”)
abridging the freedom of speech, or of the press: or the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.
Number of Cases against Raytheon less than five which were only two Cases
qualified and 4 other unqualified pursuant to the State Law and the second
ruling of the State Court (“Appendix 99-105”). The Plaintiff filed the two
unqualified cases because the California Uniform Trade Secrets Act
("CUTSA") is located at sections 3426 to 3426.11 of the California Civil Code
require in CC 3426.6 (“...for the purposes of this section, a continuing
misappropriation constitutes a single claim.”). The Plaintiff bifurcated the
State 2016 Case into two cases (“Table II in this Document”) one case has One
Claim only for Misappropriation of the Trade Secrets, and the 2nd case was
containing all the other causes of actions.
ARGUMENT
68.0The legitimate case filed in the United States Federal District Court
for the Central District of California, Southern Division, case number 8:19-cv01904-DOC-ADS is patent infringements (“Appendix 78-90”). The decision of
the District Court (“Appendix 26-31”) was Appealed by the plaintiff in

a>

00
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

February 2020 to the United States Ninth Circuit Court of Appeals Case
number 20-55189 on February 12, 2020, (“Appendix 69-76”) after the case
was fully briefed and ready for an Opinion. The Appeal was transferred
unilaterally by Intel on September 21,2020, to the United States Court of
Appeals for the Federal Circuit Case number 2020-2297 to start the time
again. (“Appendix 58-67”) The United States Court of Appeals for the Federal
Circuit Issued its Judgement Affirmed the District Court Judgement on May
7, 2021. (“Appendix 13-21”). The Rehearing and Rehearing En Bank was
Denied on July 8, 2021. (“Appendix 9-21”). Before that the Plaintiff Nagui
Mankaruse has filed Trade Secrets case against Raytheon in the California
State Court, Case number is 30-2017-00934796-CU-IP-CJC and the 2016 case
which both cases are different in the defendants and causes of actions 302016-00878349-CU-1P-CJC, and both cases were concluded by ERRED
Ruling by State Court in Summary Judgements before any discoveries which
is not legal.
69.0Petitioner Mankaruse In Pro Se in this Action against Raytheon
Company is Patent Infringement and Application case number 8:19-cv-0194DOC-ADSx. The Federal District Claim was never litigated before because
the State Court does not have Jurisdiction over Patent litigations!

c\l
o>

70.0Petitioner Nagui Mankaruse, In Pro Se have sued Raytheon only
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

DO

two Qualified cases “CCP 391(b)(2) & Court Order 8/1/2019.” Trade secrets
misappropriation cases as indicated in item 69.0 above are the only two
qualified cases to be counted in measuring vexation litigant case numbers
however Un-Constitutional.
71.0Nagui Mankaruse has been injured by Raytheon when he found out
that an American Multinational Corporation deceived the Courts and violate
two of its own Agreements (“Appendix 3”) In 8/5/2008, Oral communication
in the 364 under seal filing Appendix 84 dated 12/02/2020”)
72.0Mankaruse here is being blamed twice once by the District Court
and second by the Honorable Federal Circuit of filing this Action of Patent
Infringement against Raytheon. Mankaruse is doing what any individual or
entity must do if his/her Intellectual Property is Infringed. This is guaranteed
by the Bill of Rights and the First Amendment in the United States
Constitution. Seeking Court permission and requesting to furnish Security
Bond of any sort or order of magnitude to prevent him from demonstrating
his Constitutional rights because is not represented by Council is clear
violations of the Bill of Rights, First, Fifth, Eighth and Fourteenth
Amendments of the United States Constitution & Article I of California
co
<1)
00

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

Constitution which demonstrate clear transgression on our United States
Constitution itself as originally written.
73.0The District Court Order is simply violation to our United States
Constitution as originally written and have no standing, which also are
explained in the opposition to the District Court ruling declaring Mankaruse
vexatious litigant and order him to furnish Security Bond. In the Brief &
Reply and Memorandum in this Federal Circuit (“92-111”). However
Unconstitutional, CCP [391-391.8] & 391(b)(2). (“93-98 &106-111”). The
Raytheon situation, the counted number of cases is less than five cases even
counting the Quailed and Unqualified numbers of cases which is wrong even
against any method of counting. The qualified cases to be counted in this
situation of Intel is TWO cases which is less than five cases pursuant to The
two cases and the Unqualified cases are all different Causes of Actions and
CCP[391(b)(2). (“Table 1 and Table 2 in this document item 64”), and
(Appendix 92-111”).
74.0The plaintiff is declared vexatious litigant against defendant(s), it
must have the count against that particular defendant(s) only exactly
(“however unconstitutional”) , (“CCP391(b)(2) “After a litigation has been
finally determined against the person, repeatedly relitigates or attempts to
QO
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

relitigate, in propria persona, either (i) the validity of the determination asainst
the same defendant or defendants as to whom the litigation was finally
determined or (ii) the cause of action. claim, controversy, or any of the issues of
fact or law, determined or concluded by the final determination asainst the same
defendant or defendants as to whom the litigation was finally determined. ”)
which is the case of Raytheon here, since the defendants litigated in the three
presumed cases with one is only qualified case subject of the discussion here
were different Defendant(s) and the claims are different in both the Qualified
and Unqualified cases also can be counted as one case. The District Court and
the Federal Circuit concurred Erred on Raytheon Case because it did not &
must not count as five (5) cases absolute at the time of the Order, even with
careful examination of all cases of Raytheon no two cases have exactly the
same defendants and/or Causes of Actions (391(b)(2). We cannot add all cases
as numbers without applying the Statute exactly and carefully as written.
(“CCP391(b)(2)”.)
75.0The Honorable Federal Circuit is criticizing that the Intel and
Raytheon actions of infringement of the ‘512 US Patent & ‘458 Canadian
Patents (“Appendix 113-117”) and its applications the trade secrets are
identical, which is not true at all. First in the amended complaint against Intel,
the Infringing Device is the CPU Cooler, second, the Causes of Actions are:
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

LO
<u
ro

ClO

Indirect (Induced) Infringement 35 U.S.C. 271 & 271(b) and Direct
Infringement Cause of Action 35 U.S.C. 271, 271 (a), and the Applications of
the Patents used to build the CPU Cooling (trade Secrets). In Raytheon
situation the amended complaint causes of actions are Direct Infringement 35
U.S.C. 271 & 271(a) and the application on the Fire Finder RMI, The Sentinel
Improved radars and THAAD Missile Defense System. The two Causes of
Actions are using the patented technologies and its Application trade secrets
of the Patented two-phase cooling technologies and its Applications Statutes.
76.0The Infringing products are completely different animals, and the
basic technologies are using the same patented two-phase cooling technologies
with variations on the two distinct and appropriate applications (trade
Secrets) which make the picture complete and unique for each product as
being used and applied to both Intel and Raytheon. (Please refer to the
amended complaints of Intel & Raytheon.)
77.0Mankaruse sued Raytheon in the State Court only qualified two
times case#30-2016-cv-878349-CU-IP-CJC and 30-20700934796-CU-IP-CJC,
however the two cases are different in causes of actions and defendants which
is qualified to be counted pursuant to Table I in this document and CCP [391391.8] & 391(b)(2) provisions and State Court Order (“Appendix 99-104),
QJ
QD
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

which is less than five which unqualify and invalidates the District Court
Order under this Rehearing. As this honorable Federal Circuit prescribed in
page #3 of the Opinion (“Appendix 28”) as various claims various defendants
it cannot be counted multiple times in either Intel or Raytheon cases,
“CCP391 (b)(2)”
78.The specific detailed analysis to the infringements of the two patents
claims that were infringed are included in documents and illustrations of
quick analysis in the Raytheon amended complaint and detailed in other
discovery including 364 pages filed under seal (“Appendix 84 dated
2/2/2019”).
79.0From the start Raytheon agreements in August 5, 2008 (Appendix
3”) and After Oral and in (“Appendix 84”) before start disclosing the
protected technologies and its applications in 2008 (“Appendix 3”) with
following up with Oral agreements and communications, meetings and emails
requesting to effect the agreements during Mankaruse supervising and
transferring the patented technologies and applications the Trade Secrets to
the applicable systems which has not happened until this day.
80.0Raytheon never disputed the facts mentioned above and they
accepted the patented technologies back then and now until today and while
filling demurrers to the complaint in the State Court never got beyond
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

QJ

tao

demurrers of frivolous procedural errors since 2016 except getting two
defected ruling summary judgements in the two State Courts of 2016 and
21017 before any Discovery started which is a illegal under the California
Statutes. Messing up cases in purpose in the State Court against most perfect
complains that could be filed.
81.0The cases count against Raytheon is being listed and analyzed in
detail in table I & II in this document and its status and comments in the State
Court Order (“Appendix 99-104”) and the analysis of the Court Order
(“Appendix 92-97 and 106-111”).
82.0In the present Federal District case filed October 3, 2019 within few
weeks, Mankaruse filed an amended complaint in the Raytheon case to add
information defined the issues and include different parties to make the First
Amended Complaint more precise with more supported verified data which
are absolutely allowed without motion to leave to amend, can’t see what is
wrong with that particularly the Federal District Court has required detailed
complaints lately.
83.0Intel & Raytheon in filing bundles of frivolous motions to kill the
case and teaming with Intel in that Matter together to follow suit before as
OO

usual and suggested the prefiling approval and Bond issues, which are

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CL)
OO

2

completely obscured and motivated, since the final and last Order of
Honorable James Crandall of the State Court dated 8/1/2019 (“Appendix 99104”) has DENIED Raytheon 2nd vexatious motion on its entirety. Raytheon
was only sued two qualified times which is less than five qualified cases to be
declared Mankaruse vexatious litigant. Raytheon filed three times motions to
declare Mankaruse a vexatious litigant within less than two years which is a
clear and direct violation of the 8th Amendment of the United States
Constitution (“(“...nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb...”), was clear to file this case in the
Federal District Court on 10/3/2019 and to file the Intel Case in the Federal
Court in the same day. Mankaruse is not vexatious litigant pursuant to State
Court Ruling of 8/1/2019, CCP [391-391.8] and CCP391(b)(2) and against the
Eighth Amendment “...nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb...” The current motion declaring
Mankaruse vexa tious litigant is invalid because it is unconstitutional.

84.0Since 2016 Mankaruse have been in Courts against Raytheon and
Intel In Pro Se, but never passed the complaints phase, in both cases the
defendants refusing to start any form of discovery leading to trial on the
merits.

CT>
D
O0
Q_

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

85.0Both Raytheon and Intel are spending millions of dollars in
Attorney’s fees to keep the cases in status quo and kill the cases with
procedurals frivolous motions tactics in deceiving and providing false
information to the courts in absence of any discoveries, filing bundles of
frivuious unrelated motions avoiding going to trials on the Merits for years
now. (US Constitution Bill of Rights and Amendments 1, S, 8, & 14 and
CCP391(b)(2).
86.0Mankaruse actual complaints of his stolen Intellectual Properties is
on the merits as the law of the land allows for fairness under the law and the
Constitutional rights in California and in Untied States Constitutions, but all
of that is ignored by both multi-national Companies, not only that but they
spend all these resources and vast expenses on unneeded litigations since 2016
for no reasons other than evading the laws of the land and violating our
constitution and killing the fairness in our great Nation.
87.0It is not the Mankaruse history of litigation, however its of Intel and
Raytheon history of litigation which are abusing the system in bad faith.
88.0What are we doing here since Mankaruse filed his Complaint
against Raytheon in the District Court on October 3, 2019? The Answer is:
O

Mankaruse filed his Appeal in the ninth Circuit in January 21, 2021 followed

LO
Q0

2
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

by Raytheon and Intel transferred the case to the Federal Circuit in
September 21, 2021. Counting how many cases Mankaruse filed against intel
and Raytheon! What Mankaruse did since the filed complaints against Intel
and Raytheon. The Complaints were for Patents Infringements, but
immediately Intel and Raytheon filed bundle of frivuious Motions
immediately after to confuse, delay and overwhelm the Courts and
Mankaruse.
89.0Mankaruse has offered Raytheon new patented technology and
intellectual property based on agreements Oral and actual transferring the
technologies to be used in the three Raytheon Systems THAAD, Fire Finder
RMI and Sentinel Improved Missile Defense Systems and Programs
agreements supported by the documentations (“364 pages of documented filed
under seal in the in the District Court (“Appendix 84 dated 12/02/2019 and
were prior filed under Seal in the 2017 case in the State Court also under Seal
and physically transferring the technology to Raytheon to the systems in 2008
and 2009.
90.0Mankaruse is ready to go to trial anytime now even without any
discoveries, the evidence is in the amended complaint and the 364 pages of
documents filed under seal in the Distinct Court (“Appendix 84 dated
LO

12/2/2019”).
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

DO

a.

91.The Federal Circuit Here Erred again not only in violation of the
United States Constitution Bill of Rights, First Amendment, Fifth
Amendment, Eight Amendment and Fourteenth Amendment. Using
discretion of the Federal Circuit opinion which is not applicable here because
there are only two qualified cases against Raytheon pursuant to CCP [391. 391.8] & 391(b)(2) which is less than five cases limit for any Pro Se litigant to
be considered vexatious and State Court Order of 8/1/2019 (“Appendix 99104”) is denied that to Raytheon. What is the limit that controls the
transgression on Our Constitution, it should not be any Court in the land, who
is the ones must be defending the constitution, if it came from any other entity
or individual no mater why this can be it should be stopped and corrected by
any Court and certainly by the Unites States Supreme Court?
92.0The Mankaruse history of litigation or any kind of history of any
American cannot justify denying any American entity or individual any word
of his/her constitutional rights built by the founder of this great Nation after
the Independence of our great Nation which fought to preserve this
constitution to our great Nation and all Americans, their freedom and every
American freedom that comes after them to the end of days. The Raytheon
litigation history are analyzed in detail by the petitioner in the Raytheon
Panel Rehearing and Rehearing En Bank (“Appendix 99-11”)
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

CM
LO
DO
Q_

CONCLUSION
92.0The petitioner pray that the United States Supreme Court Grant
this Writ of Certiorari for the sake of the United States Constitution and for
this petitioner be saved from all injustices happened to him since 2008 by
Raytheon and every plaintiff decide to fight for his/her constitutional rights.
Respectfully submitted,
Dated July 29, 2021

NAGUI (NAGY) MANKAKUSL
Petitioner-Appellant In Pro Se

CO
LO

<D
Q0

2
PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

